20-982

IN THE SUPREME COURT OF THE UNITED STATES
SHARON LYNN
BROWN,

Petitioner,

v.
POLK COUNTY
WISCONSIN, ET AL.

Respondents.

On Writ of Certiorari to the United States
Court of Appeals for the Seventh Circuit
PROOF OF SERVICE
I, Ruth Brown, hereby certify that I am member of the bar of this Court, and
that on this 24th day of February 2021, I caused an electronic copy of the Amicus
Curiae Brief in Support of Petitioner in the above-captioned case to be served on the
following electronically:
Vincent Joseph Moccio
Bennerotte & Associates P.A.
3085 Justice Way, Suite 200
Eagan MN 55121
vincent@bennerotte.com
Counsel for Petitioner

Danielle Baudhuin Tierney
Axley Brynelson LLP
2 E. Mifflin Street, Suite 200
Madison, WI 53703
dtierney@axley.com
Counsel for Respondents

Mahesha P. Subbaraman
Subbaraman PLLC
222 S. 9th Street, Suite 1600
Minneapolis, MN 55402
mps@subblaw.com
Counsel for Petitioner
/s/ Ruth Brown
Ruth Brown
Counsel of Record for
Amici Curiae

